CERTIFICATE OF COMPLIANCE
Case No. 19-417
Caption: EMW Women's Surgical Center v. Meier
As required by Supreme Court Rule 33.l(h),
I certify that the document contains 2,996 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on November 12, 2019.

Samantha Collins
Record Press, Inc.

Sworn to before me on
November 12, 2019
Nadia R. Oswald-Hamid
Notary Public, State of New York
No. 01OS6101366
ualified in Kin s County
Com
r I 2023

